lJNI1 t V STATES OF AMERICA

FEDERAL TRADE COMMISSION
WASHINGTON. D C. 20580

June 17,2004

Jonathan L. Kempner
President and Chief Executive Officer
Mortgage Bankers Association
1919 Pennsylvania Avenue, N.W.
Washington, D.C. 20006-3404 ,
Re:

Stipulated Final Judgrnent and Order as to Fairbanks Capital Corp. and Fairbanks
Capital Holding Corp, reached in United States of America v. Fairbanks Capital
Corp., et al., Civil Action No. 03-12219 (DPW) (D. Mass.)

Dear Mr. Kempner:
Thank you for your letter regarding the Comission's recent settlement with Fairbanks
Capital Holding Corp. and Fairbanks Capital Corp. (collectively, "Fairbanks"). You have asked
for the Commission's position regarding the scope of the Order and the application of the
provisions contained therein to other mortgage servicing companies that were not a party to the
agreement. I am pleased to provide you with the following staff guidance. Please understand
that these are the views of the staff and do not constitute a formal Commission opinion.
The Federal Trade Commission often enters into consent orders with individuals and
companies that the Commission has reason to believe have violated the FTC Act or other laws
enforced by the Commission. In general, consent orders enjoin the defendants from violating the
law in the future, for example, by prohibiting the alleged unfair or deceptive practices.
Moreover, to protect the public from those who have demonstrated a propensity to violate the
law, these orders often contain provisions that place additional constraints upon a wrongdoer that
do not necessarily apply to other businesses that have not engaged in violations. See FTC v.
Colgate-Palmolive Co., 380 U.S. 374, 395 (1965) ("The Commission is not limited to
prohibiting the illegal practices in the precise form in which it is found to have existed in the
past. Having been caught violating the [FTC] Act, respondents must expect some reasonable
fencing in."). These "fencing-in" provisions have legal force only against the defendants who
signed the order and anyone with whom those defendants act in concert. The Commission's
consent order with Fairbanks reflects the Commission's views of the specific remedies necessary
to resolve the particular allegations against that company.

Jonathan L. Kempner
May 18,2004
Page 2

By way of example, Part V of the Fairbanks order enjoins the defendants from assessing
or collecting certain fees - that may be otherwise authorized and permitted by law - except as
provided in the order. This section includes specific conditions and time frames for the
imposition of such fees. The provision is not intended to impose a Federal rule or standard
requiring all mortgage servicers to abide by the enumerated requirements. Rather, it serves the
dual purposes of protecting consumers from further deception by the defendants, and providing
specific guidance to the defendants on complying with the order. It should be noted that this
provision expires after five years.
Thank you for your inquiry.

Sincerely,

ociate Director
ision of Financial Practices

